HHS/OIG-Audit--"Review of Title IV-E Training Costs, Illinois Department of Children and Family Services, (A-05-95-00022)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Training Costs, Illinois Department of Children
and Family Services," (A-05-95-00022)
February 29, 1996
Complete Text of Report is available in PDF format
(314 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides you with the results of our audit of training costs claimed
by the Illinois Department of Children and Family Services (State agency) under
the Title IV-E Foster Care and Adoption Assistance programs. Our review was
part of a nationwide audit of training activities at selected State agencies.
During the period January 1, 1992 through December 31, 1994, the State agency
claimed training costs of $32.3 million for reimbursement under the Title IV-E
programs.
Although an objective of our audit was to evaluate the allocation of training
costs between State and Federal programs, this area was under appeal and, therefore,
is not being covered in this report. We will address this allocation issue in
a later audit.
In relation to the audit objectives covered in this report, the State agency
inappropriately claimed training costs of $7,414,390 (Federal share - $2,742).
The results of our review are summarized below and discussed in more detail
in the Findings and Recommendations section.